<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 116-219]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 116-219

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               BEFORE THE

                              COMMITTEE ON
                              
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 20, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works


                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



        Available via the World Wide Web: http://www.govinfo.gov
        
        
                 U.S. GOVERNMENT PUBLISHING OFFICE

40-681                   WASHINGTON : 2020        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           NOVEMBER 20, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                              LEGISLATION

PN1158, nomination of Sean O'Donnell, of Maryland, to be 
  Inspector General, Environmental Protection Agency.............     4

 
                            BUSINESS MEETING

                              ----------                              


                      WEDNESDAY, NOVEMBER 20, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:39 a.m., in 
room 406, Dirksen Senate Building, Hon. John Barrasso (Chairman 
of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Braun, 
Rounds, Boozman, Ernst, Cardin, Merkley, Gillibrand, and Van 
Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    Today we are going to consider one nomination. Senator 
Carper and I have agreed that we will vote at 9:45, and it is 6 
minutes away. At that time, I will call up the nomination on 
the agenda.
    We will not debate the nomination on the agenda while we 
vote. Instead, we will debate the nomination on the agenda 
before we vote. I will also be happy to recognize any member 
who wishes to speak after the voting concludes.
    We are going to consider the nomination of Sean O'Donnell 
to be the Inspector General of the Environmental Protection 
Agency. The full Committee held a hearing on the nominee last 
month. Mr. O'Donnell is well qualified and will bring a wealth 
of experience and expertise to this critically important 
position.
    I applaud President Trump's nomination on such an 
experienced and dedicated public servant. The Environmental 
Protection Agency's Office of Inspector General currently lacks 
Senate confirmed leadership. Mr. O'Donnell has the right 
experience to fill the void.
    For nearly 20 years, Mr. O'Donnell has devoted his career 
to public service. Since 2005, he has served as a trial 
attorney for the U.S. Department of Justice. He has handled 
criminal and civil matters, such as those relating to financial 
and government program fraud and public corruption.
    Mr. O'Donnell is familiar with the use of sophisticated 
investigative and forensic tools. He has managed large 
investigative teams of attorneys, of analysts, and 
investigators. And he has worked with agents and auditors from 
half a dozen offices of inspectors general.
    Mr. O'Donnell has received numerous honors and awards for 
his work at the Department of Justice. In 2017, he received the 
Attorney General's Award for Distinguished Service, the second 
highest honor awarded by the department.
    That year, he also received the Executive Office for United 
States Attorneys Director's Award for Superior Performance by a 
Litigative Team.
    During the Obama administration, he received a Civil 
Division Special Achievement Award and numerous annual quality 
service awards.
    Mr. O'Donnell's background and experience make him an 
exceptional candidate to serve as the Environmental Protection 
Agency's Inspector General. I urge all my colleagues to support 
his nomination, and I will now turn to the Ranking Member for 
his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Good morning.
    We have, as the Chairman said, one item on our agenda 
today, and that is to vote on the nomination of Sean O'Donnell 
to be Inspector General of the U.S. Environmental Protection 
Agency.
    As we know, the EPA has been without a confirmed Inspector 
General for over a year now. I believe all of us here today 
agree that this is a job that is far too important to be vacant 
for this long. So I am glad we are gathered here today to vote 
on Mr. O'Donnell's nomination.
    As I said at his confirmation hearing, Mr. O'Donnell has a 
big job ahead of him. That bears repeating, because the EPA's 
mission is ``to protect human health and the environment.'' In 
order for the EPA to fulfill that critical mission, the agency 
itself must be protected from misconduct or unethical behavior 
that could impair it. That oversight responsibility falls in no 
small part on the EPA Inspector General.
    I had the privilege of meeting with Mr. O'Donnell 
privately. Staff and I have listened to his testimony before 
this Committee. We have reviewed his answers to the Committee's 
questions, and ultimately, I have concluded that Mr. O'Donnell 
is well qualified to serve as the EPA Inspector General.
    I was encouraged by Mr. O'Donnell's clear commitment to 
continue investigations into alleged violations of Government 
ethics rules by political leaders, even if those leaders have 
resigned their positions. Unfortunately, that did not occur 
with all the investigations into former Administrator Pruitt's 
deeply unethical behavior.
    And Mr. O'Donnell also promised to protect the integrity of 
internal and oversight functions within the EPA, especially 
when EPA's dedicated career staff are put into the untenable 
position of having to oversee or call out improper activities 
of senior political appointees.
    In recent weeks, we have seen why it is so important for 
the EPA Inspector General to be clear about the information it 
needs, and that EPA officials are cooperative and responsive in 
return. While I am hopeful that the current dispute between the 
EPA's chief of staff and the acting inspector general will be 
resolved to everyone's satisfaction before Mr. O'Donnell is 
confirmed, the dispute illustrates the importance of the role 
that Mr. O'Donnell is willing to perform.
    With that, Mr. Chairman, I look forward to a brief business 
this morning. I want to thank you, along with our colleagues 
and members of their staffs for all your work to make this 
meeting both swift and productive.
    Thanks so much.
    Senator Barrasso. Thank you very much, Senator Carper.
    Now that enough members have arrived, I would like to move 
to a vote on the nominee of today's agenda.
    The Ranking Member and I have agreed to a voice vote on the 
nominee, and members may choose to have their votes recorded 
for the nominee after the voice vote, if they have additional 
concerns. I would be happy to listen as well, and keep the 
meeting going as long as people want to comment on the nominee.
    I would like to call up Presidential Nomination 1158, Sean 
O'Donnell, of Maryland, to be Inspector General of the 
Environmental Protection Agency. I move to approve and report 
the nomination favorably to the Senate.
    Is there a second?
    Senator Carper. I second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. All those opposed, please say nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it. We have approved Presidential Nominee 1158, which will 
be reported favorably to the Senate.
    The voting part of the meeting is finished. I would be 
happy to recognize any other members who wish to speak or make 
a statement on the nomination that we have just approved.
    I do ask unanimous consent that the staff have authority to 
make technical and conforming changes to the matter approved 
today.
    Seeing no one seeking recognition, the business meeting is 
adjourned.
    [Whereupon, at 9:46 a.m., the business meeting was 
concluded.]
    [Mr. O'Donnell's Nomination Reference and Report follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>
</pre></body></html>
